                                     Office of Inspector General
                                    Corporation for National and
                                             Community Service




                       AUDIT OF
             CORPORATION FOR NATIONAL AND
                   COMMUNITY SERVICE
                  GRANTS AWARDED TO
           PENQUIS COMMUNITY ACTION PROGRAM

                       OIG REPORT 14-06




                   1201 New York Ave, NW
                          Suite 830
                    Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on February 4, 2014. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than August 4, 2014 and complete its corrective actions by February 4, 2015.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                   Office of Inspector General




                                       February 4, 2014

TO:           Charles Newton
              Chief Executive Officer, Penquis CAP

              Erwin Tan
              Director, Senior Corps, CNCS

              Rocco Gaudio
              Deputy Chief Financial Officer for Grants and FFMC, CNCS

              Shireen Tilley
              State Program Director, Office of Field Liaison, CNCS

FROM:         Stuart Axenfeld    ..Jtt-~+ AA
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (OIG) Report 14-06: Audit of Corporation for National
              and Community Service Grants Awarded to Penquis Community Action Program


Attached is the final report on the OIG's Audit of Corporation for National and Community
Service Grants Awarded to Penquis Community Action Program. This audit was performed by
OIG staff in accordance with the Government Auditing Standards, issued by the Comptroller
General of the United States.

Under the Corporation's audit resolution policy, a final management decision on the findings and
recommendations in this report is due by August 4, 2014. Notice of final action is due by
February 4, 2015.

If you have questions pertaining to this report, please contact Thomas Chin, Audit Manager, at
(202) 606-9362 or t.chin@cncsoig.gov; or me at (202) 606-9360 or s.axenfeld@cncsoig.gov.


Attachment

cc:   David Rebich, Chief Financial Officer, CNCS
      Angela Roberts, Associate Director, Senior Corps, CNCS
      Karen Gandolfo, Audit Resolution Specialist, Office of Grants Management, CNCS
      Cheri Snow, Department Director, Family Enrichment Services, Penquis CAP
      Denice Conary, Interim Chief Financial Officer, Penquis CAP
      Charlene Roberta Teeto Kirby, Project Director, Penquis CAP




                   1201 New York Avenue, NW * Suite 830 * Washington, DC 20525
                      202-606-9390 * Hotline: 800-452-8210 * www.cncsoig.gov
                                            OFFICE OF INSPECTOR GENERAL

                                          AUDIT OF
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    GRANTS AWARDED TO
                             PENQUIS COMMUNITY ACTION PROGRAM

                                                     TABLE OF CONTENTS




Executive Summary .............................................................................................................. 1

Consolidated Schedule of Claimed and Questioned Costs ................................................... 1

Findings ................................................................................................................................ 2

Audit Objectives, Scope, and Methodology ........................................................................ 18

Background......................................................................................................................... 18

Exit Conference .................................................................................................................. 19




Appendices

Appendix A – Schedule of Questioned Costs – FGP Grant 08SFAME002

Appendix B – Schedule of Questioned Costs – FGP Grant 11SFAME002

Appendix C – Schedule of Questioned Costs – RSVP Grant 09SRAME002

Appendix D – Schedule of Questioned Costs – RSVP Grant 12SRAME002

Appendix E – Penquis Community Action Program Response to Draft Report

Appendix F – Corporation for National and Community Service Response to Draft Report




                                                                       i
                                            EXECUTIVE SUMMARY

Penquis Community Action Program (Penquis) received grants totaling approximately $2.4
million from the Corporation for National and Community Service (Corporation) for its Retired
and Senior Volunteer Program (RSVP) and Foster Grandparent Program (FGP) between May
2010 and May 2013. The Corporation’s Office of Inspector General (OIG) audited the costs
incurred by Penquis during this period, and, as a result, questions $394,401, or approximately
21 percent, of the nearly $1.9 million in Federal costs charged against these grants. The
questioned costs stem from non-compliance with applicable laws, regulations, and grant
provisions. The audit gave rise to key findings that the grantee:

          Did not perform required background checks for volunteers and verify/document their
           eligibility before enrolling them.
          Did not conduct and document required background checks for Penquis’ staff.
          Did not maintain adequate documentation of service agreements between the grantee
           and volunteer stations.
          Made longevity awards to long-serving FGP volunteers without adequate transparency,
           in excessive amounts and by misreporting service hours.

To address these findings, we recommend that the Corporation disallow and recover the
questioned costs. To improve compliance, we also recommend that Penquis: (1) develop and
implement procedures to ensure that required background checks are done for volunteers and
staff; (2) improve monitoring of its volunteer stations to ensure that required documentation is
properly prepared and retained; (3) update its policies and procedures to include volunteer
longevity awards; and (4) familiarize staff with the grant agreement terms and applicable laws
and regulations.

The audit procedures were conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. The following table summarizes
Penquis’ grant awards, the costs claimed, and the questioned costs identified by the audit.

              CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                                                         Total            Total
                                        Audit           Federal          Federal      Questioned              1
              Grant                                                                    Cost ($)    Appendix
                                        Period           Grant            Costs
                                                       Awarded ($)     Claimed ($)
Foster Grandparent Program           05/01/2010 to
                                                        1,073,245       1,048,730        127,644      A
    Grant 08SFAME002                  06/30/2011

Foster Grandparent Program           07/01/2011 to
                                                        1,068,913        629,845         116,805      B
    Grant 11SFAME002                  05/31/2013

Retired and Senior Volunteer         05/01/2010 to
                                                         166,014         153,604         82,365       C
Program Grant 09SRAME002              03/31/2012

Retired and Senior Volunteer         04/01/2012 to
                                                         104,820         44,382          67,587       D
Program Grant 12SRAME002              05/31/2013
                                           Total ($)    2,412,992       1,876,561        394,401



1
    Separate schedules detailing the questioned costs are presented in Appendices A through D.




                                                          1
                                                   FINDINGS

Our audit uncovered violations of applicable grant terms, rules, and regulations, which resulted
in questioned costs and overcharges. Our findings fall into five categories:

       Finding No. 1 – Penquis Failed to Verify Eligibility Requirements and Conduct
        Background Checks for its Volunteers

       Finding No. 2 – Required Background Checks Were Not Conducted and Documented
        for Penquis Staff

       Finding No. 3 – Longevity Award Practices Undermine Integrity of Timekeeping

       Finding No. 4 – Disallowance of Direct Costs Questioned in the Audit Render Certain
        Indirect Costs Unallowable

       Finding No. 5 – Penquis’ Volunteer Station Files Did Not Contain Adequate
        Documentation, Including In-Service Training and Memorandums of Understanding

We discuss them in turn, highlighting the questioned costs2 associated with each finding.



Finding No. 1 – Penquis Failed to Verify Eligibility Requirements and Conduct
Background Checks for its Volunteers

Penquis failed to conduct critical background checks on its volunteers and did not maintain
essential volunteer eligibility documentation for its FGP and RSVP volunteers. We question the
stipend payments of $7,066 charged to the FGP grant 08SFAME002 and $6,559 charged to the
FGP grant 11SFAME002. The other deficiencies constitute failures to comply with grant
agreement terms and applicable laws and regulations for the RSVP grants.

FGP

FGP volunteers whose income falls below 200 percent of the local poverty threshold are entitled
to a stipend of $2.65 per service hour. Penquis had approximately 197 volunteers during our
audit period, and we reviewed the files of 20 volunteers who received FGP stipend payments.
In six of these cases, Penquis could produce no record to show that it checked the volunteers’
criminal histories, age, complete physical examination or income-eligibility. Penquis paid a total
of $13,625 to these six volunteers without ensuring their eligibility.

To protect members of the public served by FGP volunteers, FGP grantees are required to
undergo State Criminal Registry Searches and National Sex Offender Public Website (NSOPW)
checks. For two of the six volunteers, there were no records in their volunteer files to
demonstrate that this important safety requirement was met. Payments to these two volunteers
account for $12,253 of the $13,625 questioned.

2
  A questioned cost is: (1) an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds; (2) a finding that at the time of
testing, such costs were not supported by adequate documentation; or (3) a finding that the expenditure of funds for
the intended purpose was unnecessary or unreasonable.




                                                         2
The remaining four files displayed other deficiencies:

      None of them contained any documentation of volunteer’s physical examination, which is
       an eligibility requirement for FGP volunteers.

      One of them also lacked any documentation regarding age verification.

We questioned $1,372 for stipend payments made to these four volunteers.

RSVP

RSVP had approximately 273 volunteers for the three years within our audit period, of which we
reviewed 20. We noted the following deficiencies:

      None of the files contained verification of the volunteer’s age.

      Eleven files lacked proof of the volunteer’s agreement to serve without compensation.

      Eleven files lacked the volunteer’s written acknowledgement of program rules and
       agreement to comply.

      Six files either lacked evidence of a written assignment plan or the written assignment
       plan was so vague that the volunteer’s duties were not specified.

Because RSVP volunteers do not receive stipends, these audit findings did not result in
questioned costs.

Criteria

45 Code of Federal Regulations (CFR) §2540.201, To whom must I apply the National Service
Criminal History Check eligibility criteria?, states:

       You must apply the National Service Criminal History Check eligibility criteria to
       individuals serving in covered positions. A covered position is a position in which
       the individual receives an education award or a Corporation grant-funded living
       allowance, stipend, or salary.

45 CFR §2540.204, When must I conduct a National Service Criminal History Check on an
individual in a covered position?, states:

       (a) Timing of the National Service Criminal History Check Components. (1) You
       must conduct and review the results of the nationwide NSOPW check required
       under § 2540.203 before an individual in a covered position begins work or starts
       service. (2) You must initiate state registry or FBI criminal history checks
       required under § 2540.203 before an individual in a covered position begins work
       or starts service. You may permit an individual in a covered position to begin
       work or start service pending the receipt of results from state registry or FBI
       criminal history checks as long as the individual is not permitted access to
       children age 17 years or younger, to individuals age 60 years or older, or to
       individuals with disabilities, without being in the physical presence of an
       appropriate individual, as described in § 2540.205(g) of this chapter.

       (b) Consecutive terms. If an individual serves consecutive terms of service in a
       covered position and does not have a break in service that exceeds 120 days,


                                                3
       then no additional National Service Criminal History Check is required, as long as
       the original check is a compliant check for the covered position in which the
       individual will be serving or working following the break in service. If your
       program or project is designed with breaks in service over 120 days, but less
       than 180 days between consecutive terms, you may request approval for a break
       in service of up to 180 days before a new National Service Criminal History
       Check is required. Your request must describe the overall program design,
       explain why the longer period is reasonable, and demonstrate that you have
       established adequate risk management controls for the extended break in
       service.

45 CFR §2540.206, What documentation must I maintain regarding a National Service Criminal
History Check for a covered position?, states:

   You must:

   (a) Document in writing that you verified the identity of the individual in a covered
       position by examining the individual’s government-issued photo identification
       card, and that you conducted the required checks for the covered position; and

   (b) Maintain the results, or a results summary issued by a State or Federal
       government body, of the NSOPW check and the other components of each
       National Service Criminal History Check, unless precluded from doing so by
       State or Federal law or regulation. You must also document in writing that an
       authorized grantee representative considered the results of the National Service
       Criminal History Check in selecting the individual.

45 CFR §2552.25, What are a sponsor’s administrative responsibilities?, states:

   A sponsor shall:

   [omitted]

   (g) Establish record keeping/reporting systems in compliance with Corporation
   requirements that ensure quality of program and fiscal operations, facilitate timely
   and accurate submission of required reports and cooperate with Corporation
   evaluation and data collection efforts.

45 CFR §2552.41, Who is eligible to be a Foster Grandparent?, states:

   (a) To be a Foster Grandparent, an individual must:

       (1) Be 55 years of age or older;

       (2) Be determined by a physical examination to be capable, with or without
           reasonable accommodation, of serving adults with special needs without
           detriment to either himself/herself or the adults served;

       (3) Agree to abide by all requirements as set forth in this part; and

       (4) In order to receive a stipend, have an income that is within the income
           eligibility guidelines specified in this subpart D.




                                                4
45 CFR §2552.43, What income guidelines govern eligibility to serve as a stipended Foster
Grandparent?, states:

   (a) To receive a stipend, a Foster Grandparent may not have an annual income from
       all sources, after deducting allowable medical expenses, which exceeds the
       program’s income eligibility guideline for the State in which he or she resides.
       The income eligibility guideline for each State is 200 percent of the poverty line,
       as set forth in 42 U.S.C. 9902 (2).

   (b) For applicants to become stipended Foster Grandparents, annual income is
       projected for the following 12 months, based on income at the time of application.
       For serving stipended Forster Grandparents, annual income is counted for the
       past 12 months. Annual income includes the applicant or enrollee’s income and
       that of his/her spouse, if the spouse lives in the same residence. Sponsors shall
       count the value of shelter, food, and clothing, if provided at no cost by persons
       related to the applicant, enrollee, or spouse.

   (c) Allowable medical expenses are annual out-of-pocket medical expenses for
       health insurance premiums, health care services, and medications provided to
       the applicant, enrollee, or spouse which were not and will not be paid by
       Medicare, Medicaid, other insurance, or other third party pay or, and which do
       not exceed 50 percent of the applicable income guideline.

   (d) Applicants whose income is not more than 100 percent of the poverty line shall
       be given special consideration for enrollment.

   (e) Once enrolled, a Foster Grandparent shall remain eligible to serve and to receive
       a stipend so long as his or her income, does not exceed the applicable income
       eligibility guideline by 20 percent.

45 CFR §2552.44, What is considered income for determining volunteer eligibility?, states in
part:

   (a) For determining eligibility, “income” refers to total cash and in-kind receipts
       before taxes from all sources including:

       (1) Money, wages, and salaries before any deduction, but not including food or
           rent in lieu of wages;

       (2) Receipts from self-employment or from a farm or business after deductions
           for business or farm expenses;

       (3) Regular payments for public assistance, Social Security, Unemployment or
           Workers Compensation, strike benefits, training stipends, alimony, child
           support, and military family allotments, or other regular support from an
           absent family member or someone not living in the household;

       (4) Government employee pensions, private pensions, and regular insurance or
           annuity payments; and

       (5) Income from dividends, interest, net rents, royalties, or income from estates
           and trusts.



                                               5
45 CFR §2552.42, What type of criminal convictions or other adjudications disqualify an
individual from serving as a Foster Grandparent or as Foster Grandparent grant-funded
employee?, states:

   Any individual who is registered, or who is required to be registered, on a State sex
   offender registry, or who has been convicted of murder, as defined under Federal
   law in section 1111 of title 18, United States Code, is deemed unsuitable for, and
   may not serve in, a position as a Foster Grandparent or as a Foster Grandparent
   grant-funded employee.

45 CFR §2552.72, Is a written volunteer assignment plan required for each volunteer?, states:

   (a) All Foster Grandparent performing direct services to individual clients in home
       settings and individual clients in community-based setting, shall receive a written
       volunteer assignment plan developed by the volunteer station that:

       (1) Is approved by the sponsor and accepted by the Foster Grandparent;

       (2) Identifies the individual child(ren) to be served;

       (3) Identifies the role and activities of the Foster Grandparent and expected
           outcomes for the child;

       (4) Addresses the period of time each client is expected to receive such services;
           and

       (5) Is used to review the status of the Foster Grandparent’s services in working
           with the assigned child, as well as the impact of the assignment on the child’s
           development.

   (b) If there is an existing plan that incorporates paragraphs (a)(2), (3), and (4) of this
       section, that plan shall meet the requirement.

45 CFR §2553.41, Who is eligible to be a RSVP volunteer?, states:

   (a) To be an RSVP volunteer, an individual must:

       (1) Be 55 years of age or older;

       (2) Agree to serve without compensation;

       (3) Reside in or nearby the community served by RSVP;

       (4) Agree to abide by all requirements as set forth in this part.

45 CFR §2553.25, What are a sponsor's administrative responsibilities?, states:

   A sponsor shall:

   [omitted]

       (g) Establish record keeping and reporting systems in compliance with
           Corporation requirements that ensure quality of program and fiscal
           operations, facilitate timely and accurate submission of required reports and
           cooperate with Corporation evaluation and data collection efforts.


                                                 6
45 CFR §2553.62, What are the responsibilities of a volunteer station?, states:

   A volunteer station shall undertake the following responsibilities in support of RSVP
   volunteers:

       (a) Develop volunteer assignments that impact critical human and social needs,
           and regularly assess those assignments for continued appropriateness;

Recommendations:

We recommend that the Corporation:

   1a. Disallow and recover the questioned costs totaling $13,625;

   1b. Ensure that Penquis staff attend training that addresses the volunteer eligibility
       requirements, including the documentation necessary to demonstrate compliance with
       these requirements;

   1c. Require Penquis to develop and implement procedures to ensure that volunteer eligibility
       requirements are met and proper documentation is maintained, notwithstanding staff
       turnover; and

   1d. Ensure that Penquis volunteer stations create and document volunteers’ written
       assignment plans.



Penquis’ Response

Penquis disagreed with findings related to FGP, noting that it had located missing
documentation following the completion of audit fieldwork, but acknowledged that it needed to
do a better job of making information more easily identifiable and accessible in the volunteer
files. The grantee urged the Corporation to allow the questioned costs, totaling $13,625, since
the relevant documentation is now contained in the FGP files.

Penquis partially concurred with findings related to RSVP, indicating that its ongoing review of
the audited files found that some required documentation was absent. The grantee stated that it
is in the process of updating the volunteer files to ensure that the files include all necessary
information.

Penquis agreed with recommendations 1b through 1c.



OIG’s Comment

OIG acknowledges that certain missing documentation was provided to us after the issuance of
our draft report, but applicable regulations require documentation be maintained in the files as
stated in the criteria section above. We recommend the Corporation review the additional
supporting documentation and determine whether any questioned costs should be recovered.




                                               7
Finding No. 2 – Required Background Checks Were Not Conducted and Documented for
Penquis Staff

Penquis was unable to demonstrate that it conducted background checks for its staff. None of
the six FGP and seven RSVP staff we reviewed had NSOPW checks conducted before or after
beginning their employment with Penquis. While Penquis did conduct National Service Criminal
History checks for three FGP and five RSVP staff, these checks took place one to three years
after September 2009, when the Corporation began to require grantees to perform background
checks on staff members.

Applicable rules and regulations expressly require not only that the checks be performed but
also that the grantee maintains the original documentation of the results. See the table below
for the questioned Federal costs for salaries and fringe benefits associated with these FGP and
RSVP staff:


                              Grants                Questioned Cost ($)
                         FGP 08SFAME002                   110,097
                         FGP 11SFAME002                   88,466
                         RSVP 09SRAME002                  76,193
                         RSVP 12SRAME002                  62,007
                             Total ($)                    336,763


Criteria

45 CFR §2540.201, To whom must I apply the National Service Criminal History Check
eligibility?, states:

   You must apply the National Service Criminal History Check eligibility criteria to
   individuals serving in covered positions. A covered position is a position in which the
   individual receives an education award or a Corporation grant-funded living
   allowance, stipend, or salary.

45 CFR §2540.204, When must I conduct a National Service Criminal History Check on an
individual in a covered position?, states:

   (a) Timing of the National Service Criminal History Check Components. (1) You must
       conduct and review the results of the nationwide NSOPW check required under §
       2540.203 before an individual in a covered position begins work or starts service.
       (2) You must initiate state registry or FBI criminal history checks required under §
       2540.203 before an individual in a covered position begins work or starts service.
       You may permit an individual in a covered position to begin work or start service
       pending the receipt of results from state registry or FBI criminal history checks as
       long as the individual is not permitted access to children age 17 years or
       younger, to individuals age 60 years or older, or to individuals with disabilities,
       without being in the physical presence of an appropriate individual, as described
       in § 2540.205(g) of this chapter.

   (b) Consecutive terms. If an individual serves consecutive terms of service in a
       covered position and does not have a break in service that exceeds 120 days,
       then no additional National Service Criminal History Check is required, as long as



                                                8
       the original check is a compliant check for the covered position in which the
       individual will be serving or working following the break in service. If your
       program or project is designed with breaks in service over 120 days, but less
       than 180 days between consecutive terms, you may request approval for a break
       in service of up to 180 days before a new National Service Criminal History
       Check is required. Your request must describe the overall program design,
       explain why the longer period is reasonable, and demonstrate that you have
       established adequate risk management controls for the extended break in
       service.

45 CFR §2540.206, What documentation must I maintain regarding a National Service Criminal
History Check for a covered position?, states:

   You must:

   (a) Document in writing that you verified the identity of the individual in a covered
       position by examining the individual’s government-issued photo identification
       card, and that you conducted the required checks for the covered position; and

   (b) Maintain the results, or a results summary issued by a State or Federal
       government body, of the NSOPW check and the other components of each
       National Service Criminal History Check, unless precluded from doing so by
       State or Federal law or regulation. You must also document in writing that an
       authorized grantee representative considered the results of the National Service
       Criminal History Check in selecting the individual.

45 CFR §2552.25, What are a sponsor’s administrative responsibilities?, states:

   A sponsor shall:

   [omitted]

   (g) Establish record keeping/reporting systems in compliance with Corporation
   requirements that ensure quality of program and fiscal operations, facilitate timely
   and accurate submission of required reports and cooperate with Corporation
   evaluation and data collection efforts.

Recommendations:

We recommend that the Corporation:

   2a. Disallow and recover the questioned costs totaling $336,763;

   2b. Ensure that Penquis staff are properly trained regarding the performance and
       documentation regarding background checks for staff members; and

   2c. Require Penquis to develop and implement procedures to ensure that grant
       requirements associated with the National Service Criminal History and NSOPW checks
       for staff are met and documented.




                                               9
Penquis’ Response

Penquis partially concurred with the finding. The grantee asserted that, although background
checks were performed for staff, they were not conducted timely and the results were not
documented in the staff personnel files. Penquis subsequently performed the State Criminal
Registry Searches and NSOPW for all staff, and the results found no disqualifying conduct.
Penquis stated that it recognized that timeliness is important and agreed that some financial
penalty might be appropriate. Penquis also agreed with recommendations 2b and 2c.



OIG’s Comment

As acknowledged by Penquis, its staff background checks were not performed and documented
timely. The additional supporting documentation provided to us reflects the results of staff
background checks performed and documented subsequent to conclusion of our audit fieldwork.
We recommend the Corporation verify the latest staff background check results and determine
whether any questioned costs should be recovered.



Finding No. 3 – Longevity Award Practices Undermine Integrity of Timekeeping

Beginning in 2011, Penquis began a practice of imputing bonus hours annually to its long-
serving FGP volunteers, adding them to the volunteer’s actual service hours for purposes of
calculating stipend payments. In other words, longtime volunteers are paid for more hours than
they in fact worked. These longevity bonuses range from 40 hours ($106) for 5-9 years of
service, to 70 hours ($185.50) for more than 20 years of service. During the audit period,
Penquis paid a total of $12,190 in longevity bonuses and reported 4,600 hours that were never
served.

We discovered this practice when, during our stipend payment testing, we noted that one
volunteer had recorded service hours in excess of the weekly maximum allowed 40 hours. The
FGP Project Coordinator advised that this volunteer received a longevity award of 60 bonus
hours, which were added to the volunteer’s service hours. We learned that longevity awards
are made by the Coordinator by adding hours to the timesheet after it is completed by the
volunteer and approved by the station supervisor. The Coordinator provided us a memorandum
listing the names and bonus hours associated with FGP volunteers who received longevity
awards.

Penquis’ practices with respect to these awards are not memorialized in rules, regulations or
procedures, the Corporation’s FGP Operations Handbook, or the Penquis’ FGP Volunteer
Handbook. We were told that other Senior Corps grantees also pay longevity bonuses.
Penquis claimed that it obtained an advance approval from the Corporation’s Maine State
Office, but was unable to provide us any electronic mail or other documentation of this approval.
The State Office was not aware of the practice; the current staff did not know whether anyone at
Headquarters was aware that not all of the hours claimed were bona fide.

Reporting fictitious hours undercuts the integrity of the timekeeping process, on which the
Corporation relies. The impact of Penquis’ mischaracterizations may be small, but widespread
adoption of this practice—paying an unearned 1-2 weeks of stipend to every volunteer with five
or more years of service—is potentially significant.



                                               10
FGP has suggested that these bonuses may be permissible as costs of “recognition for
[volunteers’] service,” which are reimbursable pursuant to 45 CFR § 2252.46(e)(2). But FGP’s
own guidelines on recognition refer to celebratory events, tokens and public acknowledgements,
not monetary awards. Thus, FGP’s Operations Handbook refers to: “formal public recognition”
of volunteer service; “recognition events [which] may consist of special ceremonies, teas,
breakfasts, luncheons and recreational outings,” which may be supported by in-kind donations
of “food, decorations, and transportation;” tokens of appreciation, such as “pins and certificates
for stated terms of service;” and “informal recognition” by listening to and acting on volunteers’
recommendations, praise and increasingly satisfying assignments. “Foster Grandparents
Operations Handbook, Chapter 9, Cost Reimbursements, g. Recognition”, at page 93. The
listed items are qualitatively different from payment of bonus. Moreover, nothing in these
guidelines authorizes grantees to show their appreciation by overstating reported hours.

Mischaracterizing these cash awards as stipends for service prevents oversight of recognition
expenses, with obvious risks. With no transparency about recognition expenses, the
Corporation has no way to monitor such expenditures or determine whether they are excessive.
It is thus not surprising that FGP senior officials were unaware of Penquis’ practice.

We believe that acknowledgement of long service is warranted, but Penquis has gone about it
the wrong way. Recognition cannot be accomplished by falsifying the reported service hours,
however well intentioned.

Criteria

45 CFR § 2543.21, Standards for financial management systems, states:

   (b) Recipients’ financial management systems shall provide for the following:

       [omitted]

       (6) Written procedures for determining the reasonableness, allocability and
       allowability of costs in accordance with the provisions of the applicable Federal
       cost principles and the terms and conditions of the award.

45 CFR § 2552.12, Definitions, states:

       [omitted]

   (i) Cost Reimbursement. Reimbursements provided to volunteers such as stipends
       to cover incidental costs, meals, and transportation, to enable them to serve
       without cost to themselves. Also included are the costs of annual physical
       examinations, volunteer insurance and recognition which are budgeted as
       Volunteer Expenses.

45 CFR § 2552.46, What cost reimbursements are provided to Foster Grandparents?, states:

   Cost reimbursements include:

   (a) Stipend. Foster Grandparents who are income eligible will receive a stipend in an
       amount determined by the Corporation and payable in regular installments, to
       enable them to serve without cost to themselves. The stipend is paid for the time
       Foster Grandparents spend with their assigned children, for earned leave, and
       for attendance at official project events.


                                               11
       [omitted]

   (e) Meals and recognition. Foster Grandparents shall be provided the following within
       limits of the project’s available resources:

       (1) Assistance with the cost of meals taken while on assignment; and
       (2) Recognition for their service.

   (f) Other volunteer expenses. Foster Grandparents may be reimbursed for expenses
       incurred while performing their volunteer assignments, provided these expenses
       are described in the Memorandum of Understanding negotiated with the
       volunteer station to which the volunteer is assigned and there are sufficient funds
       available to cover these expenses and meet all other requirements identified in
       the notice of grant award.

45 CFR § 2552.51, What are the terms of service of a Foster Grandparent?, states:

   A Foster Grandparent shall serve a minimum of 15 hours per week and a maximum
   of 40 hours per week. A Foster Grandparent shall not serve more than 2088 hours
   per year. Within these limitations, a sponsor may set service policies consistent with
   local needs.

45 CFR § 2552.92, What are project funding requirements?, states:

   [omitted]

   (f) May a sponsor pay stipends at a rate different than the rate established
       by the Corporation? A sponsor shall pay stipends at the same rate as that
       established by the Corporation.

Foster Grandparents Operations Handbook, Chapter 9, Cost Reimbursements, g. Recognition,
states:

   Appropriate recognition is provided for Foster Grandparents. [45 CFR 2552.46]

   (1) At least annually, the FGP project sponsor plans and arranges for formal public
       recognition of Foster Grandparents’ service to the community. Sponsors are also
       authorized to recognize local individuals and agencies or organizations for
       significant activities that support Foster Grandparent project goals.
   (2) Informal recognition should be on-going. This includes listening to and acting on
       recommendations by Foster Grandparents, offering honest praise, and providing
       assignments that are increasingly satisfying.
   (3) Recognition events may consist of special ceremonies, teas, breakfasts,
       luncheons, and recreational outings at which pins and certificates for stipulated
       terms of service are awarded.
   (4) The Community Advisory Group and volunteer stations are expected to
       participate in recognition activities. Community contributions in support of
       recognition activities can enhance the quality of the events. Contributions need
       not be monetary; donated space, food, decorations, and transportation should be
       encouraged.
   (5) To emphasize the importance of the occasion, Corporation Field and
       Headquarters staff, as well as city and county officials and officers of local
       organizations, may be invited to recognition events.


                                               12
Recommendations:

We recommend that the Corporation:

     3a. Disallow and recover stipends totaling $12,190 for hours that were reported but were
         not served;

     3b. Make clear to all grantees that recordation of fictitious hours is never acceptable;

     3c. Provide guidance to all grantees to ensure resources and funds spent on volunteer
         recognition are utilized in a reasonable and consistent manner; and

     3d. Ensure that Penquis develops clear rules for longevity awards and captures them in
         writing.



Penquis’ Response

Penquis disagreed with the finding, contending that it implemented the longevity awards in
accordance with its “collective interpretation” obtained at the Atlantic Cluster meetings. The
grantee considered the longevity awards to be a category of time earned and accrued by
volunteers and acknowledge that the associated hours were mistakenly recorded as regular
service hours. Thus, the grantee maintains that the hours awarded to volunteers were
appropriate and do not constitute falsification. Consequently, Penquis did not agree with
recommendation 3a, but concurred with recommendations 3b through 3d.

OIG’s Comment

However well-intentioned this practice may have been, it clearly resulted in recordation of
service hours that were not actually served or otherwise authorized. The longevity awards
cannot be treated as “earned” as Penquis suggests. Applicable regulations permit a Foster
Grandparent to be paid a stipend for time spent with children, earned leave, and for attendance
at official project events. “Earned leave” is paid leave; it involves accrual of payment for time in
which the participant is absent, such as vacation or sick days. It cannot be stretched to
embrace longevity awards unrelated to leave. Thus, the problem is not, as Penquis contends,
a simple documentation error in which longevity hours were mistakenly recorded as service
hours, but rather that the grantee was not authorized to use Federal funds to pay longevity
bonuses.

Moreover, the longevity payments are in addition to a generous earned leave policy in which a
volunteer serving 31 hours per week accrues 15.2 hours of leave per month regardless of
longevity, for annual leave of 182.4 hours, or up to 5.88 weeks of paid leave. 3 A 20-year
volunteer who serves 15 hours per week will receive a longevity bonus equal to 4.67 weeks of
compensation, in addition to his or her 91.92 hours of paid leave.4



3
 Penquis’ policy allows service participants to accrue additional leave for time spent on earned leave. A volunteer
serving 31 hours per week accrues 5.88 weeks of leave annually, while a volunteer serving 40 hours per week
accrues 4.56 weeks of leave.
4
 Unlike earned leave, the longevity awards remain the same whether the volunteer works as little as 15 hours per
week or as much as 40 hours.


                                                        13
These longevity bonuses cannot be justified as a form of “recognition.” OIG believes that the
taxpayers and the Corporation would readily identify a volunteer appreciation lunch or token
costing $106-$185 person as excessive. Penquis’ longevity awards amount to the same thing.
Recording these costs as service hours obscured their excessiveness.          To approve such
expenses based on a “collective interpretation” of an unrecorded discussion at the Corporation’s
meeting was not reasonable.

OIG is troubled by the grantee’s failure to appreciate the implications of its conduct now that the
matter has come to light. The $12,190 that Penquis paid in longevity bonuses would have
funded two full-time FGP volunteers for more than one year, during which each would have
tutored multiple children, including those at-risk students in academic and social skills.
Expending Federal funds for excessive and unauthorized volunteer bonuses reduces the
amount of service to the community.

For these reasons, we reiterate our recommendation that the Corporation recover the funds and
take steps to ensure that no other grantees are pursuing similar practices.



Finding No. 4 – Disallowance of Direct Costs Questioned in the Audit Render Certain
Indirect Costs Unallowable

Penquis applies its approved indirect cost rate to all direct costs charged to the FGP and RSVP
grants. Thus, having questioned certain direct costs in connection with Findings 1 through 3,
we are likewise required to question related indirect costs, totaling $20,071 in the case of FGP
and $11,752 for RSVP.

Penquis calculates its indirect cost rate annually, and this rate is approved by the Program
Support Center, Financial Management Services, Division of Cost Allocations of the Department
of Health and Human Services. For each of the fiscal years under audit, Penquis’ approved
indirect cost rates were as follows:



                                  Date                Indirect Cost Rate
                         10/01/2010-09/30/2011               8.1%
                                (FY 2011)
                         10/01/2011-09/30/2012               9.0%
                                (FY 2012)
                        10/01/2012-Until Amended             9.0%
                                (FY2013)




                                                14
We applied the above rates to each of the questioned costs, by the fiscal year when the costs
were incurred. Based on this procedure, we calculated the questioned costs for each grant as
follows:

                               FGP 08SFAME002                 FGP 11SFAME002
              Finding
                No.        Questioned       Indirect     Questioned       Indirect
                            Costs ($)       Cost ($)      Costs ($)       Cost ($)
                 1               7,066           572           6,559            531

                 2             110,097         9,909          88,466          7,962

                 3                   -             -         12,190           1,097
              Total ($)        117,163        10,481        107,215           9,590




                               RSVP 09SRAME002               RSVP 12SRAME002
              Finding
                No.        Questioned       Indirect     Questioned       Indirect
                            Costs ($)       Cost ($)      Costs ($)       Cost ($)

                  2            76,193         6,172         62,007          5,580

              Total ($)        76,193         6,172         62,007          5,580



Recommendation:

We recommend that the Corporation:

   4. Disallow and recover the questioned costs totaling $31,823.



Penquis’ Response

Penquis concurred with our finding and recommendation, subject to the final deposition of
disallowed costs from findings noted in the report.



OIG’s Comment

We recommend the Corporation determine whether any questioned costs should be recovered
based on its decisions on allowing/disallowing questioned costs reported in Findings 1, 2, and 3.




                                               15
Finding No. 5 – Penquis’ Volunteer Station Files Did Not Contain Adequate
Documentation, Including In-Service Training and Memorandums of Understanding

Penquis’ FGP and RSVP programs conduct their activities at multiple sites, 91 volunteer
stations in the case of FGP and 55 stations for RSVP. Program sponsors are expected to enter
into a Memorandum of Understanding (MOUs) with each volunteer station, to set forth project
requirements and divide responsibilities between the sponsor and the on-site supervisors.
Furthermore, program sponsors are expected to organize and document pre-service orientation
and in-service training. The orientation and training ensures that volunteers are educated about
their rights and responsibilities relating to the programs. The sponsor is also expected to
monitor the volunteer sites to ensure that the program achieves its objectives and complies with
applicable requirements.

We reviewed Penquis’ oversight of ten volunteer stations, divided evenly between FGP and
RSVP. None of these stations could demonstrate that volunteers were provided with an
orientation or in-service training.

Further, one FGP volunteer station had no MOU in its files. The MOU found at one of the RSVP
volunteer stations was incomplete. Though signed, the agreement failed to specify the
“Volunteer Station Responsibilities,” and instead left this section of the form blank.

Clear documentation of the respective responsibilities of volunteer stations and sponsors is
essential to ensure that the parties understand and fulfill their obligations and accomplish
program goals. The absence of an agreed allocation of responsibilities may weaken Penquis’
ability to hold volunteer stations accountable. Likewise, volunteers must be trained to ensure
that they understand their duties and the constraints under which they are to operate.

Criteria

45 CFR §2552.23(c), What are a sponsor’s program responsibilities?, states:

   Develop and manage a system of volunteer stations by:

   [omitted]

   (2) Ensuring that the placement of Foster Grandparent is governed by a
       Memorandum of Understanding:

       (i) That is negotiated prior to placement;
       (ii) That specifies the mutual responsibilities of the station and sponsor;
       (iii) That is renegotiated at least every three years; and
       (iv) That states the station assures it will not discriminate against volunteers or in
             the operation of its program on the basis of race; color; national origin,
             including individuals with limited English proficiency; sex; age; political
             affiliation; religion; or on the basis of disability, if the participant or member is
             a qualified individual with a disability.

45 CFR § 2552.62, What are the responsibilities of a volunteer station?, states:

   A volunteer station shall undertake the following responsibilities in support of Foster
   Grandparent volunteers:




                                                   16
   (a) Develop volunteer assignments that meet the requirements specified in §§
       2552.71 through 2552.72 and regularly assess those assignments for continued
       appropriateness.

   (b) Select eligible children for assigned volunteers.

   (c) Develop a written volunteer assignment plan for each child that identifies the role
       and activities of the Foster Grandparent and expected outcomes for the child
       served.

   (d) Obtain a Letter of Agreement for Foster Grandparents assigned in-home. This
        letter must comply with all Federal, State and local regulations.

   (e) Provide Foster Grandparents serving the station with:

       (1) Orientation to the station and any in-service training necessary to enhance
           performance of assignments;

       (2) Resources required for performance of assignments including reasonable
           accommodation; and

       (3) Appropriate recognition.

   (f) Designate a staff member to oversee fulfillment of station responsibilities and
       supervision of Foster Grandparents while on assignment.

   (g) Keep records and prepare reports required by the sponsor.

   (h) Provide for the safety of Foster Grandparents assigned to it.

   (i) Comply with all applicable civil rights laws and regulations including reasonable
       accommodation for Foster Grandparents with disabilities.

   (j) Undertake such other responsibilities as may be necessary to the successful
       performance of Foster Grandparents in their assignments or as agreed to in the
       Memorandum of Understanding.

45 CFR §2553.23(c)(3), What are a sponsor’s program responsibilities?, states:

   Develop and manage a system of volunteer stations by to provide a wide range of
   placement opportunities that appeal to persons age 55 and over by:

   (3) Annually assessing the placements of RSVP volunteers to ensure the safety of
       volunteers and their impact on meeting the needs of the community.

Recommendations:

We recommend that the Corporation:

    5a. Ensure that Penquis execute MOUs for all volunteer stations; and

    5b. Ensure that Penquis’ volunteer stations provide orientations and in-service training to
        volunteers and maintain proper documentation for related activities.




                                               17
Penquis’ Response

Penquis concurred with the finding and recommendations. It has begun to update all volunteer
station files to ensure adequate documentation of in-service training and MOUs.



OIG’s Comment

The plan proposed by Penquis meets the intent of our recommendation. We recommend the
Corporation follow up with Penquis to ensure its plan is implemented.



                    AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

OIG conducted a performance audit of the Corporation grants awarded to Penquis. The audit
objectives were to examine Penquis’ compliance with the grant terms; to determine whether the
claimed costs are allowable, adequately supported, and properly charged; and to report upon
such compliance issues, controls and questioned costs that may result from performing these
audit procedures. The audit covered a three-year period from May 2010 to May 2013.

The audit procedures required us to obtain an understanding of Penquis and its policies,
procedures, and grants. They also included reviewing documents at Penquis’ offices related to
volunteer eligibility, claimed costs, matching costs, and compliance with laws, regulations, and
the terms of grant agreements. Our audit procedures included randomly selecting samples to
test costs claimed by Penquis for compliance with its Corporation grant agreements and other
Federal requirements. The questioned costs detailed in this report are based on this limited
sample; the total costs questioned might have been higher if we had tested all of the
expenditures incurred during the audit period, and we have not projected or estimated the
amounts that would have been questioned had all of the claimed costs been tested. We began
our audit in June 2013; conducted our on-site fieldwork at the Penquis offices in Bangor, Maine,
from July 15, 2013, to July 18, 2013; and concluded our audit fieldwork in October 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.



                                       BACKGROUND

The Corporation, under the authority of the National Community Service Trust Act, as amended,
awards grants and cooperative agreements to State commissions, nonprofit entities, and tribes
and territories to assist in the creation of full- and part-time national and community service
programs. Through these grantees, volunteers perform service to meet educational, human,
environmental, and public safety needs.

Penquis, headquartered at Bangor, Maine, was incorporated in 1967 as a result of the
Economic Opportunity Act of 1964 to bring locally developed solutions to the multifaceted
problems faced by the poor. Its mission is to assist individuals and families in preventing,



                                              18
reducing or eliminating poverty in their lives and through partnership to engage the community
in addressing economic and social needs.

Penquis receives grants from the Corporation for FGP and RSVP. Its FGP program operates in
14 of the 16 counties in Maine. FGP addresses the education focus area to increase school
readiness of preschool children and to increase success of K-12 students. FGP volunteers read
to and tutor children, and provide assistance and support to improve social and emotional
development and literacy and math skills. A nominal stipend of $2.65 per service hour is
available to volunteers whose incomes fall below a predetermined threshold pegged to the
poverty level. During the audit period, approximately 197 FGP volunteers served at Penquis.

Penquis manages its RSVP program in three counties in Maine. The volunteers read to
children under five years of age, prepare and distribute food to individuals experiencing food
insecurity, provide assistance to older adults and persons with disabilities, and provide services
to nonprofit organizations in the region. RSVP grants support programs through which
volunteers age 55 and over provide a broad range of services to meet community needs. RSVP
does not provide financial stipends to volunteers. During the audit period, approximately 273
RSVP volunteers served at Penquis.



                                      EXIT CONFERENCE

Our exit conference was conducted on November 25, 2013. At the exit conference, we
presented each of the findings set forth in this report. The Penquis’ response was received on
December 16, 2013 and is included in its entirety in Appendix E. The Corporation’s response
was received on January 9, 2014 and is included in its entirety in Appendix F.




                                               19
APPENDICES
                                                                                  Appendix A

                       PENQUIS COMMUNITY ACTION PROGRAM
                         SCHEDULE OF QUESTIONED COSTS
                           AWARD NO. 08SFAME002 (FGP)

                                                    Questioned
                            Issues                                    Notes
                                                     Costs ($)
              Missing Eligibility Determination          7,066           1
              Missing Criminal and Sex Offender
                                                       110,097           2
              Documentation for Staff
              Indirect Costs                            10,481           3
              Total ($)                                127,644




NOTES:

  1. Penquis failed to conduct critical background checks on its volunteers and did not
     maintain essential volunteer eligibility documentation for the FGP grant. This resulted in
     questioned cost of $7,066 paid to the volunteers as stipend payments. (See Finding No.
     1)

  2. Penquis did not maintain evidence that it conducted the required National Service
     Criminal History and NSOPW Checks for its staff. (See Finding No. 2)

  3. Indirect costs that must be disallowed because of the direct costs questioned during the
     audit. (See Finding No. 4)
                                                                                  Appendix B

                       PENQUIS COMMUNITY ACTION PROGRAM
                         SCHEDULE OF QUESTIONED COSTS
                           AWARD NO. 11SFAME002 (FGP)

                                                   Questioned
                          Issues                                       Notes
                                                    Costs ($)
            Missing Eligibility Determination          6,559              1
            Missing Criminal and Sex Offender         88,466              2
            Documentation for Staff
            Longevity Award                           12,190              3
            Indirect Costs                             9,590              4
            Total ($)                                116,805




NOTES:

  1. Penquis failed to conduct critical background checks on its volunteers and did not
     maintain essential volunteer eligibility documentation for the FGP grant. This resulted in
     questioned cost of $6,559 paid to the volunteers as stipend payments. (See Finding No.
     1)

  2. Penquis did not maintain evidence that it conducted the required National Service
     Criminal History and NSOPW Checks for its staff. (See Finding No. 2)

  3. Penquis overstated service hours in order to provide longevity bonuses to long-serving
     FGP volunteers, without policies and procedures. (See Finding No. 3)

  4. Indirect costs that must be disallowed because of the direct costs questioned during the
     audit. (See Finding No. 4)
                                                                                Appendix C

                      PENQUIS COMMUNITY ACTION PROGRAM
                        SCHEDULE OF QUESTIONED COSTS
                         AWARD NO. 09SRAME002 (RSVP)

                                                  Questioned
                          Issues                                     Notes
                                                   Costs ($)
            Missing Criminal and Sex Offender        76,193             1
            Documentation for Staff
            Indirect Costs                            6,172             2
            Total ($)                                82,365




NOTES:


  1. Penquis did not maintain evidence that it conducted the required National Service
     Criminal History and NSOPW Checks for its staff. (See Finding No. 2)

  2. Indirect costs that must be disallowed because of the direct costs questioned during the
     audit. (See Finding No. 4)
                                                                                Appendix D

                      PENQUIS COMMUNITY ACTION PROGRAM
                        SCHEDULE OF QUESTIONED COSTS
                         AWARD NO. 12SRAME002 (RSVP)

                                                   Questioned
                          Issues                                      Notes
                                                    Costs ($)
           Missing Criminal and Sex Offender          62,007            1
           Documentation for Staff
           Indirect Costs                              5,580            2
           Total ($)                                  67,587




NOTES:


  1. Penquis did not maintain evidence that it conducted the required National Service
     Criminal History and NSOPW Checks for its staff. (See Finding No. 2)

  2. Indirect costs that must be disallowed because of the direct costs questioned during the
     audit. (See Finding No. 4)
                 APPENDIX E
_____________________________________________
      PENQUIS COMMUNITY ACTION PROGRAM
        RESPONSE TO DRAFT REPORT
PENQUIS
Helping Today• Building Tomorrow


December 13, 2013


Stuart Axenfeld
Assistant Inspector General for Audit
Office of Inspector General
1201 New York Avenue, NW
Suite 830
Washington, D.C. 20525

RE :   Comments on draft Audit of Corporation for National and Community Service Grants Awarded
       to Penquis Community Action Program

Dear Mr. Axenfeld:

       Thank you for the opportunity to comment on the draft Audit of Corporation for National and
Community Service Grants Awarded to Penquis Community Action Program (the "Draft Report").
We appreciate the effort that went into the Draft Report. While we agree with some findings, we
disagree with others, and with yet others we ask you to reconsider the questioned costs.

        As requested by your letter dated November 27, 2013, our comments are organized under each
of the findings.

Finding No. 1 -- Penquis Failed to Verify Eligibility Requirements and Conduct Background
Checks for its Volunteers

        This finding is separated into two categories: FOP and RSVP. We will address each category
separately. We will also address the recommendations.

        FOP. Disagree. Penquis CAP has conducted a thorough review of the volunteer files in
question, and we have identified all the required information as timely collected and present in the
volunteer files. Under separate cover we have already copied and sent the information to one of the
auditors for review and verification. We acknowledge that we can do a better job of making the
information more easily identifiable and accessible in the volunteer files. However, according to our
records, no money was paid to volunteers without ensuring their eligibility.

         RSVP. Partially disagree. We have not completed our review of all the files. From the files
we have reviewed, it appears that some of the missing information is present in the files, and some is
not. We are in the process of updating all of the files, and ensuring all the information is present in the
files . Since RSVP volunteers do not receive stipends, there are no questioned costs to address.


                                                            262 Harlow Street              (207) 973-3500
                                                            PO Box 1162                Fax (207) 973-3699
                                                            Bangor, Maine 04402       TDD (207) 973-3520
                                                            www.penquis.org               1-800-215-4942
Stuart Axenfeld
Dec. 13, 2013
Page 2

Recommendations. Since all the required infonnation was present in the FGP volwiteer files in
question, we believe the Corporation should allow the $13,625 in questioned costs identified by the
Draft Report. We agree with the other recommendations.

Finding No. 2 - Required Background Checks Were Not Conducted and Documented for
Penquis Staff

       Partially disagree. We acknowledge that there was a period of time prior to an internal change
in management that background checks were not timely performed. Beginning in December 2012
backgrowid checks were performed on -                                          and
Backgrowid checks were done on                       when        joined the program in May 2013.
Unfortunately while completed, these were not added to their personnel file. In addition, State
Criminal Registry Searches and NSOPW checks were ultimately performed on all the staff, including
past supervisors and support staff. National Service Criminal History checks were ultimately
conducted for all the staff requiring those checks. We are attaching the documents for your review.
Importantly, the criminal and NSOPW checks show that none of the staff had any disqualifying
conduct in their backgrowid.

        Accordingly, we maintain that it would be disproportionate and unfair to disallow and recover
the salaries and benefits associated with the staff in question. The documentation shows that all the
staff were eligible and would not have been disqualified. The staff did the work required by the grant.
Thus, the issue is one of witimeliness, not eligibility or services provided. Of course, we recognize
and acknowledge that timeliness is important, and so we agree that some financial penalty might be
appropriate. We agree with the other recommendations.

Finding No. 3 - Longevity Award Practices Undermine Integrity of Timekeeping

        Disagree. The manner in which we implemented the longevity incentive award was guided by
our collective interpretation at the Atlantic Cluster meetings. Our intent was simple: to provide
additional earned time based on years of service in the program.

        We acknowledge our implementation was marred by internal documentation mistakes, which
unfortWlately confused the auditors. In our documentation, earned time was mis-labeled as regular
time. In other words, time that should have been entered as earned time was recorded as regular time.
The volwiteers involved legitimately accrued the earned time, and they got no more than they were
entitled to. Once the documentation errors are widerstood, it is clear that no volunteers were paid for
regular time that was not served.

        We are attaching a letter announcing the longevity policy, and we are in the process of updating
a written description of the policy itself.

         Once we account for the confusing manner in which staff documented volunteer earned time, it
is clear that no amounts were paid for regular hours not served. While our documentation was
confusing and faulty, the earned time was legitimate and deserved, and we strenuously object to any
finding suggesting Penquis CAP falsified reported service hours or reported fictitious hours.
Stuart Axenfeld
Dec. 13, 2013
Page 3


       Hence, we believe the Corporation should allow the $12,129 in questioned costs identified by
the Draft Report. We agree with the other recommendations.

Finding No. 4 -· DisaUowance of Direct Costs Questioned in the Audit Render Certain Indirect
Costs Unallowable

        Agree. However, if our proposed reductions in disallowed costs are accepted and any penalties
associated with finding #2 are not related to the compensation paid, there are no disallowed direct costs
and no need for a reduction in indirect costs.

Finding No. 5 -- Penquis' Volunteer Station Files Did Not Contain Adequate Documentation,
Including In-Service Training and Memorandum of Understanding

        Agree. We also agree with the recommendations, and we have already begun to update all
station files to ensure adequate documentation of in-service training and MOUs.


       Thank you for the opportunity to comment on the Draft Report.


Sincerely,



Cheri Snow
Department Director
                    APPENDIX F
____________________________________________________
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
            RESPONSE TO DRAFT REPORT
                                NATIONAL&
                                COMMUNITY
                                SERVICE tut



To:

From:

Cc:           David Rebich, CFO
              Valerie Green, General Counsel
              Doug Hilton, Director Office of Oversight and Accountability

Date:         January 9, 2014

Subject:      Response to OIG Draft of Agreed-Upon Procedures Report for
              Corporation for National and Community Service (CNCS) Grants
              Awarded to the Penquis Community Action Group


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of
CNCS's grants awarded to the Penquis Community Action Group. We will respond to
all findings and recommendations in our management decision after the final audit is
issued; the OIG has provided us with the audit working papers; and we have worked with
the grantee to develop appropriate corrective action.
